<html>
<title> - [H.A.S.C. No. 112-22] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-22]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

         BUDGET REQUEST FOR NATIONAL SECURITY SPACE ACTIVITIES

                               __________

                              HEARING HELD
                             MARCH 15, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-589                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e594e517e5d4b4d4a565b524e105d515310">[email&#160;protected]</a>  



                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                Ryan Crumpler, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, March 15, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request for National Security Space 
  Activities.....................................................     1

Appendix:

Tuesday, March 15, 2011..........................................    23
                              ----------                              

                        TUESDAY, MARCH 15, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                   NATIONAL SECURITY SPACE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Subcommittee on Strategic Forces...............................     3
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Conaton, Hon. Erin C., Under Secretary of the Air Force..........     4
Sapp, Betty J., Principal Deputy Director, National 
  Reconnaissance Office..........................................     8
Schulte, Ambassador Gregory L., Deputy Assistant Secretary of 
  Defense, Space Policy..........................................     6
Shelton, Gen. William L., USAF, Commander, Air Force Space 
  Command........................................................     6

                                APPENDIX

Prepared Statements:

    Conaton, Hon. Erin C.........................................    29
    Sanchez, Hon. Loretta, a Representative from California, 
      Ranking Member, Subcommittee on Strategic Forces...........    27
    Sapp, Betty J................................................    87
    Schulte, Ambassador Gregory L................................    75
    Shelton, Gen. William L......................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................   111
    Mr. Franks...................................................   104
    Mr. Lamborn..................................................   106
    Mr. Rogers...................................................   107
    Mr. Ruppersberger............................................   108
    Ms. Sanchez..................................................   101
    Mr. Turner...................................................   101
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                   NATIONAL SECURITY SPACE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 15, 2011.
    The subcommittee met, pursuant to call, at 3:47 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Good afternoon. I would like to welcome 
everyone to the Strategic Forces Subcommittee's hearing on the 
fiscal year 2012 budget request for national security space 
activities. Our witnesses this afternoon are the Honorable Erin 
Conaton, Under Secretary of the Air Force; General William 
Shelton, the new Commander of Air Force Space Command; 
Ambassador Greg Schulte, Deputy Assistant Secretary of Defense 
for Space Policy; and Ms. Betty Sapp, Principal Deputy Director 
of the National Reconnaissance Office.
    Thank you all for appearing before this committee.
    I want to give a special welcome, of course, to Erin 
Conaton. We greatly appreciate her prior service with this 
committee. People say with absolute conviction that this is one 
of the most bipartisan committees that is on Capitol Hill, and 
it is one of the reasons why I enjoy serving on it. And, Erin, 
you certainly contributed greatly to that spirit of 
bipartisanship and, at the same time, contributed to what I 
think is a highly substantive team here. Thank you for your 
work as Under Secretary of the Air Force. With the Wright-
Patterson Air Force Base, I am particularly pleased, obviously, 
that the Air Force was able to secure your service; and I get 
to recognize, I understand, today is your one-year anniversary. 
Congratulations. We greatly appreciate your work there.
    Secretary Conaton. Thank you, sir.
    Mr. Turner. I must express, however, the committee's 
disappointment that we did not receive General Shelton's 
testimony until just hours ago. While I understand the 
General's testimony was completed several days ago, it was not 
cleared by OMB [Office of Management and Budget], and it was 
not received by this committee until 11:00 a.m. today.
    We take these hearings seriously, and I want to have a 
substantive discussion on the material presented in testimony. 
Therefore, our committee requires witnesses' testimony 48 hours 
in advance of a hearing so that members may have sufficient 
time to review it and can use it to inform their oversight 
questions, and so that the members of our staff can have an 
ability to digest the context of the testimony that is being 
provided.
    It is the Air Force's responsibility to get this testimony 
to the committee timely, even though we are aware of the issues 
in working with OMB. We certainly hope that that occurs in the 
future.
    Let me first start by congratulating the Department on an 
impressive 38 out of 38 successful EELV [Evolved Expendable 
Launch Vehicle] launches and commend our dedicated space 
professionals for placing the first GPS [Global Positioning 
System] IIF satellite, the first AEHF [Advanced Extremely High 
Frequency] satellite, and the SBSS [Space Based Space 
Surveillance] Block 10 spacecraft on orbit this past year.
    I am pleased that major space acquisition programs such as 
AEHF, WGS [Wideband Global SATCOM], MUOS [Mobile User Objective 
System], GPS, and SBIRS [Space Based Infrared System] appear to 
be sufficiently funded in the budget request despite a $178 
billion efficiency reduction for the Department over the next 5 
years. Finishing these acquisition programs and getting them on 
orbit is vitally important. Equally important are the 
investments in next-generation science and technology and 
innovation and ingenuity that can lead to new, and sometimes 
revolutionary, capabilities.
    There has been significant turbulence in space acquisition 
over the past decade. This has resulted in significant cost 
growth and schedule delays, leading to greater fragility in our 
space architectures and greater instability in the industrial 
base. Therefore, I was pleased to see that the Air Force 
proposed its space acquisition efficiency initiative, or EASE 
[Evolutionary Acquisition for Space Efficiency], in this year's 
budget request. However, the Department is requesting 
legislative authority this year to implement EASE that is 
different than in past years. It is important for our committee 
to understand why this legislation is needed. We also need to 
understand the longer-term strategy for EASE, because this is a 
different approach to space acquisition, and we want to have 
confidence that this isn't just a one-year activity.
    I am concerned about the industrial base for solid- and 
liquid-fuel rockets. Costs for the Evolved Expendable Launch 
Vehicle, EELV, have skyrocketed with the termination of NASA's 
[National Aeronautics and Space Administration] Constellation 
program, and infrastructure costs currently shared by the 
Department and NASA are being passed on to DOD [Department of 
Defense]. I am also concerned that the EELV block buy approach 
does not fully meet the national security launch needs of the 
Department, despite cost increases of $3.5 billion in the 
outyear budget request.
    I would also like to highlight a few other concerns that I 
hope our witnesses can address today.
    First, the National Security Space Strategy recognized that 
space is becoming increasingly, ``congested, contested, and 
competitive.'' Orbital debris, such as that created in the 2007 
Chinese anti-satellite test and the 2009 Iridium-Russian Cosmos 
satellite collision, increasingly threaten our space assets. 
However, our current Space Situational Awareness, SSA, toolset 
rests largely on 1980s computer and network technology. The Air 
Force plans to replace this with the Joint Space Operations 
Center Mission System, but this information system program has 
experienced several challenges and setbacks. This is an 
important capability. I would appreciate our witnesses' 
thoughts on how we can get this set for success.
    Second, I would like to further understand the Department's 
concerns about a new commercial communications capability that 
could potentially interfere with the GPS, as highlighted in a 
recent letter from the Deputy Secretary of Defense to the FCC 
[Federal Communications Commission]. Such interference could 
have severe consequences not only for the military but also 
first responders, the FAA [Federal Aviation Administration], 
and other civil and commercial users who are highly dependent 
on GPS.
    Third, the Department's $100 billion efficiencies 
initiative and $78 billion deficit reduction initiative appear 
to take significant tolls on our space workforce. These cuts 
appear to be in areas that were scheduled for growth to 
accommodate rapid mission growth. What is the magnitude of this 
issue and how is the Department approaching it?
    Fourth, the discussion in the National Security Space 
Strategy on ``norms'' has led to questions about whether the 
United States intends to sign up to the European Union's Code 
of Conduct for space. Some believe the Code could be a first 
step towards space arms control and limit U.S. freedom of 
action in space. What are the impacts of such an agreement? I 
would hope that the Department would carefully consult this 
committee before taking any further steps that could limit our 
future operations in space.
    Lastly, a year ago, I expressed my concern that the 
National Air and Space Intelligence Center, NASIC, was being 
restricted from doing original analysis in certain counterspace 
areas despite their long history of technical expertise. Some 
of this has been resolved, but I am still uneasy with the 
current allocation of space intelligence analytical 
responsibilities. Like our committee, I understand that many of 
your organizations are routinely briefed by NASIC. Limiting 
their ability to continue to provide such important support 
cannot be in our best interest, especially with the 
Department's increased emphasis on space situational awareness 
and space protection.
    I want to thank you all for being with us today. You each 
possess a tremendous amount of expertise and insight on our 
Nation's space policy and capabilities, and our Nation is 
better off as a result of your service. I look forward to your 
testimony.
    With that, I would like to turn to Mr. Langevin, who will 
be our ranking member, for an opening statement.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
         RHODE ISLAND, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Langevin. Thank you, Mr. Chairman. Welcome to our 
witnesses.
    Before I begin, I just wanted to welcome Secretary Conaton 
back to the committee. It is wonderful to have you back here 
once again; and, like the chairman, I would like to 
congratulate you on your one-year anniversary of being sworn in 
as Under Secretary to the Air Force.
    With that, Ranking Member Sanchez, who is out sick today, 
has a statement that I would like to submit on her behalf for 
the record.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 27.]
    Mr. Langevin. With that, I look forward to the witnesses' 
testimony.
    I would just say I would like to associate myself with many 
of the comments and statements that the chairman made, and I 
will get into some of those questions during my time for 
questioning.
    With that, Mr. Chairman, I yield back and look forward to 
our witnesses' testimony.
    Mr. Turner. Thank you, Mr. Langevin.
    Under Secretary Conaton.

 STATEMENT OF HON. ERIN C. CONATON, UNDER SECRETARY OF THE AIR 
                             FORCE

    Secretary Conaton. Thank you, Mr. Chairman, Mr. Langevin, 
Mr. Lamborn, Mr. Thornberry. It's wonderful to be back and 
wonderful to be part of this subcommittee and this committee 
again.
    I want to thank you for everything that you do for our 
690,000 active Guard, Reserve, and civilian airmen. This 
committee in particular does so much in overseeing some of our 
most critical national security programs, whether it be nuclear 
weapons, missile defense, or the subject of today's hearing, 
space programs.
    Being back in this room brings back many memories and all 
of them good. So I am thrilled to be back and, particularly, to 
be here with my great colleagues in national security space. If 
you don't know already, you will find out in the course of the 
hearing just how much tremendous expertise is up here, and I am 
thrilled you will have the opportunity to engage in a dialogue 
with these wonderful colleagues.
    I want to just very briefly highlight some of the changes 
we have seen over the past year when it comes to Air Force 
space programs, particularly in the areas of governance, 
acquisition reform, and investment. The changes we have made in 
those areas are consistent with and designed to support the 
tenets of the National Space Policy and the National Security 
Space Strategy.
    As Ambassador Schulte will discuss at more length, these 
two documents emphasize the need for us to strengthen our 
capabilities, as the chairman said, in an increasingly 
congested, contested, and competitive space environment. Both 
call for increased information sharing and cooperation through 
interagency collaboration and international partnerships, and 
both emphasize energizing our space industrial base. They 
recognize space as a vital national interest that must be 
defended, and stress that our space assets and infrastructure 
must be resilient.
    In support of the policy guidance in the fiscal year 2012 
budget request, we are focusing on international partnerships 
and our Wideband Global Satellite Communications and Space 
Fence programs, working with other agencies and our industry 
partners to stabilize the market for space launch and investing 
in critical upgrades to our secure communications capability 
and our GPS constellation, to name just a few examples.
    To ensure we can effectively execute these strategies, we 
know we must have a sound management structure. To that end, we 
have made a number of changes in space governance over the past 
year, both within the Air Force and throughout the broader 
Department of Defense.
    Within the Air Force, I was designated as the focal point 
for space. We created a Space Board to do management of Air 
Force space activities; and our space acquisition efforts were 
consolidated under our Service Acquisition Executive, Mr. Dave 
Van Buren.
    At the DOD level, Secretary Mike Donley was revalidated as 
the Department of Defense's Executive Agent for Space. The 
Department created the Defense Space Council to do 
collaborative work across the Department, and our National 
Security Space Office was dissolved in favor of a new joint 
Executive Agent support office, which will be stood up in the 
coming months.
    These are significant developments that will help us 
reshape how we acquire and manage space capabilities.
    In this budget, the Air Force is dedicating $8.8 billion, 
fully 21 percent of the Air Force's total investment accounts, 
to national security space programs. We take our space 
responsibilities very seriously, but to be good stewards of the 
space mission in the increasingly constrained fiscal 
environment, we have to make our programs more cost-effective.
    As part of Secretary Gates' efficiencies initiative, we 
found savings throughout the Air Force and plan to reinvest 
these funds into readiness and warfighter programs, including 
our space programs such as the Evolved Expendable Launch 
Vehicle program, or EELV.
    As another part of our push for more cost-effective 
programs, the Air Force is developing a new acquisition 
strategy for this EELV program, and doing so in great 
partnership with the National Reconnaissance Office and with 
NASA. It is based on a strong commitment to sustaining our 
decade-long perfect record of launches. And thank you, Mr. 
Chairman, for highlighting that. The folks who work for General 
Shelton and for Ms. Sapp do tremendous work to ensure that we 
keep that record perfect, stabilizing a fragile industrial base 
and lowering the increasing costs of space launch.
    In addition, as the chairman noted in his opening 
statement, we have also proposed a new approach to buying 
satellites called Evolutionary Acquisition for Space 
Efficiency, or EASE. EASE is based on four key tenets: block 
buys, fixed-price contracts, stable research and development 
investments, and full funding over multiple years through 
advance appropriations. We are confident this approach will 
result in a better price to the taxpayer and provide greater 
stability and predictability for our country's space industrial 
base. We appreciate the dialogue we have already had with your 
staffs on this issue and look forward to working with you 
further as you get closer to your markup.
    In conclusion, the Air Force remains committed to 
excellence in the space enterprise, both as a core function of 
our service and on behalf of the broader national security 
community. Our fiscal year 2012 budget reflects this commitment 
and maintains critical space capabilities for our Nation and 
our warfighters.
    Thank you, as always, for your constant support for the 
Department of Defense and the Department of the Air Force. I 
look forward to engaging in your questions.
    [The prepared statement of Secretary Conaton can be found 
in the Appendix on page 29.]
    Mr. Turner. Thank you.
    General Shelton.

  STATEMENT OF GEN. WILLIAM L. SHELTON, USAF, COMMANDER, AIR 
                      FORCE SPACE COMMAND

    General Shelton. Thank you, Mr. Chairman, Representative 
Langevin, and distinguished members of the subcommittee. It is 
an honor to appear before you today as the Commander of Air 
Force Space Command. I am also honored to be with these leaders 
of the national security space enterprise, Under Secretary 
Conaton, Ambassador Schulte, and Principal Deputy Director 
Sapp.
    In Air Force Space Command, I am privileged to lead over 
46,000 Active Duty, Guard, and Reserve airmen, government 
civilians, and contractors who deliver space and cyberspace 
capabilities around the world for our Nation. Air Force Space 
Command space and cyberspace capabilities are integral to the 
joint fight, and our professionals work extremely hard to 
continually ensure excellence and mission success.
    Based on the unique responsibilities of the Command, I have 
established three priorities: First, Air Force Space Command 
must continue to support the joint fight; second, we must get 
control of the costs of space systems; and, finally, we must 
operationalize and normalize cyberspace for 21st century 
military operations.
    The fiscal year 2012 budget advances the Command's progress 
toward these priorities. It modernizes GPS, the world's gold 
standard for positioning, navigation, and timing information. 
It advances satellite communications to meet ever-increasing 
demand. It enhances Overhead Persistent Infrared capability, 
essential for missile warning and missile defense. It improves 
our Space Situational Awareness, which is foundational to our 
ability to monitor both our spacecraft and the congested and 
contested space environment in which they operate. It addresses 
acquisition improvements in procuring satellites and launch 
vehicles. And, finally, it builds upon our cyberspace 
foundation for improved capability.
    I thank the committee for your continued and steadfast 
support of Air Force Space Command and the capabilities we 
provide for this Nation. I look forward to your questions. 
Thank you.
    [The prepared statement of General Shelton can be found in 
the Appendix on page 49.]
    Mr. Turner. Ambassador Schulte.

 STATEMENT OF AMBASSADOR GREGORY L. SCHULTE, DEPUTY ASSISTANT 
               SECRETARY OF DEFENSE, SPACE POLICY

    Ambassador Schulte. Chairman Turner, Representative 
Langevin, subcommittee members, thank you for the opportunity 
to testify this afternoon.
    Last year at this hearing, Chairman Turner urged the 
administration to provide, ``a forward-looking posture that 
will guide near-term and future investments in space.'' Last 
month, Secretary Gates and DNI [Director of National 
Intelligence] Clapper submitted to Congress the first ever 
National Security Space Strategy with exactly that intent.
    This new strategy starts with the dramatic changes in the 
space domain, a domain that remains vital to our national 
security, but as you, Mr. Chairman, noted, is increasingly 
congested, contested, and competitive. In face of these 
challenges, the strategy seeks to protect the strategic 
advantages we derive from space, while also protecting the 
domain itself and the industrial base that is so important to 
our capabilities there.
    My prepared statement summarizes the strategy in detail, 
and Secretary Conaton and General Shelton described in their 
prepared statements how the strategy is already being reflected 
in DOD programs.
    I would like to briefly touch on three important aspects of 
the new strategy: first, promoting the responsible use of 
space; second, partnering with other countries; and, third, 
deterring attack on our space systems.
    Promoting the responsible, peaceful, and safe use of space 
is one of the strategy's key approaches. A more cooperative, 
predictable environment enhances our national security and 
discourages destabilizing behavior. The United States is 
leading by example. We have recently begun to provide pre-
launch notification of our space launches, just as we have 
notified ballistic missile launches in the past. STRATCOM 
[United States Strategic Command], once a command designed 
solely to deliver nuclear weapons, is now delivering warnings 
of potential collisions in space.
    The United States is also looking to promote international 
transparency and confidence-building measures for space. With 
that in mind, we are currently evaluating the European Union's 
proposed international Code of Conduct for Outer Space 
Activities. While the administration has not made a final 
determination on the Code, our preliminary assessment finds it 
a positive approach to promoting responsible behavior in the 
domain, enhancing our national security in the process.
    At your request, Mr. Chairman, we remain ready to stay in 
close touch with your committee as work on the Code progresses; 
and let me assure you the Department of Defense, together with 
the Intelligence Community, will ensure that our national 
security equities are well protected.
    Partnering with other countries is another key approach of 
the new strategy. Partnerships allow us to benefit from growing 
space capabilities of allies in other countries, to make our 
space capabilities more diverse and resilient, and to improve 
our ability to operate in coalition. Improved space situational 
awareness, a foundational element of the new strategy, is one 
of several mission areas that can benefit from international 
cooperation. Secretary Gates recently signed statements of 
principles on SSA sharing with his counterparts from Australia, 
Canada, and France, countries whose capabilities and geography 
can contribute importantly to tracking and characterizing the 
many objects in space.
    Another good example of partnership is the Wideband Global 
SATCOM, WGS, system. Australia has bought into the 
constellation, and the Air Force is negotiating with other 
allies to buy in as well. This expands the number of 
satellites, adds coverage and resiliency, and shares the cost--
a welcome benefit at a time of budget constraints.
    The new strategy also reflects a new multi-layered approach 
to deterring attacks on our space systems, an approach that 
builds on aspects of the strategy that I have already 
described.
    In brief, the first layer of deterrence is the 
establishment of norms of responsible behavior, separating 
responsible space-faring countries from those who choose to act 
otherwise.
    The second layer of deterrence is the establishment of 
international coalitions, forcing a potential adversary to 
contemplate attacking the capabilities of a coalition of 
countries, not just one.
    The third layer of deterrence is mission assurance, 
ensuring that we can conduct key missions in a degraded 
environment, thus reducing the incentive to attack our space 
capabilities.
    The fourth layer of deterrence is a readiness and 
capability to respond in self defense, and not necessarily in 
space.
    The goal is simple: to complicate the decisionmaking of a 
potential adversary in peacetime, crisis, and conflict in order 
to encourage restraint while protecting key missions should 
deterrence fail us.
    In conclusion, the Department has adopted a new space 
strategy to protect the national security advantages that we 
derive from a domain that is increasingly congested, contested, 
and competitive. We look forward to working with Congress in 
implementing this strategy. Thank you.
    [The prepared statement of Ambassador Schulte can be found 
in the Appendix on page 75.]
    Mr. Turner. Ms. Sapp.

STATEMENT OF BETTY J. SAPP, PRINCIPAL DEPUTY DIRECTOR, NATIONAL 
                     RECONNAISSANCE OFFICE

    Ms. Sapp. Chairman Turner, Ranking Member Langevin, thank 
you for letting me be here today. It is a pleasure to appear 
before you with my colleagues and partners from the DOD.
    I want to make a very brief summary of my statement that we 
turned in for the record and just start with the state of the 
NRO [National Reconnaissance Office].
    From building and launching the most technically capable 
overhead systems to our successful financial management 
practices, the NRO remains the premiere overhead reconnaissance 
organization in the world. We are nearly through the most 
aggressive launch campaign that we have had in over 25 years, 
successfully launching five satellites into orbit in the last 7 
months. We have one more to go next month.
    Our ability to sustain this tempo is due to the diligent 
efforts of our program teams, who successfully acquire and 
deliver these complex systems, and to our NRO launch team, who, 
with our partners in General Shelton's organization, have 
gotten them successfully into space. We are especially proud of 
this accomplishment because it demonstrates our ability to 
deliver against our commitments and because of the new overhead 
reconnaissance system capabilities we are able to provide to 
the President, senior policymakers, and to our Nation's 
warfighters.
    We are also very proud of our data fusion and ground 
processing systems. They are also making a difference to the 
warfighter. For example, several months ago, in the U.S. 
Central Command area of operations, analysts were made aware of 
an impending ambush on coalition troops, but they were unable 
to pinpoint the location of the attack. A newly developed 
system by the NRO provided the analysts precise geolocation of 
where the attack would come from. It was actionable 
intelligence for our troops. They got--in time--both close air 
support and reinforcements. The net result was that they killed 
20 insurgents and with no casualties on the coalition side. So 
this is the kind of support and dedication the men and women of 
the NRO strive to provide to our warfighters, and it is very 
important to us.
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. On behalf of General 
Carlson, I thank you for your continued support of the NRO, and 
I stand ready to answer your questions.
    [The prepared statement of Ms. Sapp can be found in the 
Appendix on page 87.]
    Mr. Turner. Great. Thank you.
    I know that members have a number of questions. So what I 
am going to suggest we do two rounds of 5 minutes each, and 
maybe we will have some overlap of items that members are 
interested in.
    My first question to the panel goes to the request of EASE, 
the Evolutionary Acquisition for Space Efficiency. If you could 
please give us an idea as to what the expected project cost 
savings of the AEHF block buy that is proposed in the new EASE 
acquisition strategy, what that might be ultimately. If the Air 
Force had not proposed this block buy approach, what would have 
been the estimated cost for the AEHF procurement, and how would 
that have affected the overall space procurement budget?
    And then, on the legislative side, what is the legislative 
authority that the Air Force is requesting to implement EASE? 
Why, specifically, is it necessary? And if the Congress were to 
provide such authority for advance spending, what measures will 
the Air Force take to ensure accountability for and 
transparency into these funds?
    Under Secretary Conaton, if you want to go first.
    Secretary Conaton. Sure. I will take a crack at it.
    So, as I understand, you are looking for the benefits, what 
the downsides would be if we can't accomplish this goal, and 
then to talk a little bit about the legislative provision.
    So starting with what we think the benefits are, it is 
twofold: benefit to the taxpayer in the form of lower costs, 
and benefit to the industrial base in the form of greater 
stability. We believe that by undertaking a block buy 
approach--buying two satellites at once--that there is an 
economic benefit to that, not only to the contractor but in the 
price they are able to offer to the Federal Government and the 
American taxpayer.
    Now, the work that we have done here started, honestly, 
with direction that came from this committee and others over 
the years, that you were not happy with the way that we were 
procuring satellites and that you wanted us to look at a 
different way of doing it. Obviously, we have put together an 
approach here, and we are looking forward to a dialogue with 
you all about whether this meets your intent and where we can 
go from here. But we have gotten direction from the Congress.
    Our CAPE office, Cost Analysis and Program Evaluation, I 
think that is right--Cost Assessment, excuse me--they have been 
doing work for a number of years that shows that when we buy 
satellites one at a time that we are not as effective as if we 
are buying in blocks and reinvesting continuously into research 
and development. So I want to highlight that this concept comes 
with analysis behind it.
    But the real work really happens from here, which is to say 
that it now falls into the acquisition chain to actually turn 
that analysis into real savings for the taxpayer. We are 
confident that we will be able to achieve real savings. But 
that work, that analytical work by the acquisition community, 
needs to be done on the ``should-cost'' for this system; and 
that is under way under the leadership of Dave Van Buren and 
then, ultimately, in detailed negotiations with Lockheed 
Martin.
    And, Mr. Chairman, I beg a little bit of indulgence. I 
think you can appreciate that we don't necessarily want to lay 
out the details of our negotiation strategy in a forum like 
this, but I would like to commit to you to keep working with 
the committee so that you have understanding of where we are 
headed with this.
    In terms of what happens to us if we can't achieve this 
approach, the challenge that we have had in the past is that--
because of the significant cost of space systems, where 
satellites can cost upwards of $1 billion, $1.5 billion, when 
we have to fully fund in a single year--what happens is you 
create a spike in a particular program. So in fiscal year 2012 
that spike, if we fully fund it, would be in AEHF. And the 
effect of that, particularly in the budget environment that you 
all know about better than I, is that it forces us to push 
other space and other programs further to the right because we 
can't afford to do everything the same year, and it forces us 
then to buy other programs less efficiently.
    And what we have found over time is that, for the 
industrial base, when they get breaks in production lines, it 
drives their costs up, it wreaks havoc on their workforce, and 
it ultimately drives a higher price to the taxpayer when we 
have to buy that next satellite. So, for those reasons, we 
think that we need to undertake a new approach that allows us 
to avoid those funding spikes and that provides greater 
stability to the industrial base.
    In terms of the legislative proposal we intend to send 
over, it is sitting with OMB right now. But the Air Force's 
intent is to put forward a request for full funding through 
advanced appropriations, and we will certainly work with you on 
the details of that proposal. But the idea is to give you 
greater confidence on what it will cost over time by locking in 
funding over the course of the Future Years Defense Program at 
the outset. And the benefit for us is that it allows us to 
avoid those spikes and put the funding over multiple years. 
But, again, we would be very happy to work with you on that.
    And, General Shelton, I don't know if there is anything you 
want to add.
    General Shelton. Just one thing. As the guy that has got to 
program for this, if you can have stable funding across several 
years, that allows you, in a time where we are basically 
recapitalizing every constellation we have got, it allows you 
to get the most bang for the buck across the board, as opposed 
to managing these big spikes and having to manage where those 
spikes occur across the years. So, exactly as Secretary Conaton 
said, we are just trying to get to a stable funding 
environment, much more predictable for our suppliers as well.
    Mr. Turner. Thank you.
    Does anyone else wish to comment on the issue?
    General Shelton and Ms. Sapp, part of the EELV block buy 
approach calls for a shift in cost sharing for launch services, 
with the Air Force then picking up a greater share of the cost. 
How does the 75-25 split between Air Force and NRO impact your 
budgets and programs? It is our understanding that it is being 
reallocated.
    General Shelton. We have already adjusted to that. It was 
directed by OMB. There was a direction as well for us to get 
together and, between Air Force and the NRO, come up with a 
memorandum of agreement of exactly how this is going to occur. 
Those negotiations are in progress right now. I think we will 
be done with this by May.
    Mr. Turner. Anything you would like to add, Ms. Sapp?
    Ms. Sapp. No, that is exactly right. We are going to put 
down the exact scope we are each covering and just write it 
down, and we will get there next month.
    Secretary Conaton. Mr. Chairman, can I just add one thing 
on that? Which is to put into context the work that the two 
organizations are doing. And it goes back to where you started, 
which is that record of launch success. I think we are really 
mindful of ensuring that any adjustments we make in our 
partnership on EELV put that mission assurance as job one, and 
both these organizations are absolutely committed to that. So 
we can work through the details when we start from a common 
goal.
    Mr. Turner. Excellent.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, welcome to our witnesses. I would like to try and, 
if I could, just go back to parts of the testimony you just 
touched on in terms of access to space.
    Last year, as chairman of the Strategic Forces 
Subcommittee, I was concerned about the increasing challenges 
of U.S. access to space, particularly given our drawdown of our 
civilian space exploration program and the problems of the 
solid rocket motor industrial base. As you know, both the 
Minuteman-III ICBM [intercontinental ballistic missile] and the 
Trident II D-5 missile carried by our Ohio-class submarines are 
critically reliant on this industrial base. This year, the 
Obama administration has increased its request for space launch 
by 50 percent, from $1.2 to $1.8 billion.
    My questions are: What is driving these budget increases 
and what options should we be considering to lower costs of 
access to space? What is the Department doing to ensure that 
our access to space and our missile force are not threatened by 
these rising costs? And then, finally, what can be done to 
stabilize the industrial base?
    Secretary Conaton. I guess I will take a first crack at it 
and then ask General Shelton and Ms. Sapp to jump in.
    These two have a lot more of the historical context than I 
do. But let me give you my understanding, Mr. Langevin, of why 
we are facing increased costs. Some of it goes back to the 
beginning of the EELV program and the market that we assumed 
that was out there for commercial launch. So there were lot 
buys, there were large purchases of items that were made all at 
once at preferential costing. And, over time, we have been 
drawing those down. That has been happening in the procurement 
of the actual boosters and the items that go into that.
    And also, on the Service side, we had basically gained an 
advantage from previous block buys. And as time has gone on, we 
have burned that down, and we are now seeing the true current 
cost of launch.
    The second piece there is that you have got, as you noted, 
industrial base issues--second- and third-tier suppliers that 
have had a break in production or have gone out of business--
and we are seeing increased costs in that area. Just in the 
propulsion area alone, we are facing costs two to four times 
what it had been previously. So in terms of what we are doing 
about this, part of it is the block buy that General Shelton 
and Ms. Sapp discussed, where the NRO and the Air Force 
together are committing to eight cores a year to provide 
stability to the industrial base. But it comes back again to 
doing a rigorous ``should-cost'' review to really look at the 
drivers of costs and to negotiate them down with our industry 
partner.
    General Shelton. Mr. Langevin, we just completed a 
``should-cost'' review. It resulted in over 80 recommendations 
of things to look at to help lower costs, and we are pursuing 
each one of those over 80 items.
    In terms of the solid rocket motor industrial base, in the 
space arena, we have not been a big player in that. And I 
should clarify that for national security space. Most of our 
rockets are liquids and then small strap-on solids, but not the 
large solids that you talk about for Minuteman and Trident 
class. The Constellation program that NASA was running, which 
has now been canceled, was going to be a big user of solid 
rocket boosters. The shuttle program is certainly a big user of 
solid rocket boosters. So there is valid concern about the 
industrial base and the industrial capacity to produce those 
boosters for the future, particularly in our strategic 
platforms. But in the space arena, we are just not a big player 
in that.
    Mr. Langevin. Ms. Sapp, did you have anything to offer?
    Ms. Sapp. No, I would just say we are working hard to 
partner with the Air Force on both the infrastructure costs and 
on stabilizing the industrial base on the booster side as well 
with the minimum eight cores per year that we have committed to 
buy between the two of us. That gives the provider what they 
need to stabilize.
    Mr. Langevin. Thank you.
    Let me talk about other entrants to the space area, 
particularly in commercial. We have seen remarkable progress of 
new entrants into the space launch business, such as SpaceX. 
What is the Air Force doing to allow these new entrants the 
opportunity to compete for DOD space launch contracts?
    Secretary Conaton. I guess I will start.
    Mr. Langevin, there is actually a memorandum of 
understanding between the NRO, the Air Force, and NASA that was 
signed just in the last week that, among other things, speaks 
to launch and this commitment to eight cores per year. But part 
of it talks about the need to get a certification process in 
place for new entrants, wherever they may come from. So that 
work will be completed, we hope, by late July.
    I guess what I would say at a macro level is we would very 
much like to see some competition. We think that there are some 
innovative things out there. But the main thing that will be 
playing in our minds is the commitment to mission assurance and 
being confident that we can retain this positive track record 
that is out there. But we think that there are some 
opportunities in the near future for other competitors to 
demonstrate what they can do in this area.
    Mr. Langevin. Do you have anything to add, General?
    General Shelton. I am good.
    Mr. Langevin. If I could, just before my time runs out, 
Operationally Responsive Space [ORS] has been a major priority 
for the Department. You spoke about it in your opening 
testimony. This has happened since 2006. The goal of, 
obviously, rapidly reconstituting space assets to meet urgent 
needs without the usual long, expensive satellite acquisition 
process is, I believe, critical to the requirements of today's 
changing world. So can you elaborate more on how we are 
focusing on the ORS program? Are we doing it appropriately? If 
not, what else could or should we do to direct resources to 
this effort? What are some of the lessons learned from our ORS 
program which can be applied to more traditional space 
programs?
    General Shelton. Congressman, this is a journey that we 
started not that long ago, stood up in about 2007 time frame. 
We have been at this for just a few years now. We have 
benefited from the TacSat series of satellites, what we have 
learned from TacSat-2 and -3. TacSat-4 is going to be ready for 
launch probably in the May time frame. The ORS-1 satellite will 
be ready in the May time frame. So we are making, what I would 
consider, baby steps along the way here in determining what the 
art of the possible is.
    Can we truly build a plug-and-play satellite? Can we truly 
build a rapidly launchable satellite? Can we have launchers on 
standby that are ready to go and put up a plug-and-play 
satellite? All those questions we are trying to methodically 
work through. So it is going to take some time.
    I would say we have learned lessons along the way thus far, 
but the big lessons will come with, I think, the TacSat-4 and 
the ORS-1 satellites. So we are probably another year or two 
out before we really determine a good way ahead for ORS.
    Mr. Langevin. Good. Thank you to our witnesses.
    I yield back.
    Mr. Turner. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you all for 
being here.
    And another homecoming of sorts is Major Eric Lingle, 
sitting right behind you, who was my Air Force fellow last year 
and did a wonderful job. So it is good to see him as well.
    And, General Shelton, I am going to have two questions for 
the record--they are too detailed to talk about with everybody 
here--one having to do with an Air Force Satellite Control 
Network upgrade, as well as another issue. So if you could be 
looking for two questions for the record on those things, I 
would appreciate it.
    Now, on insourcing--and we had this same conversation with 
General Kehler, your predecessor--of your needing--to the 
degree that insourcing is still either official policy or 
playing out as previous official policy--and I haven't even 
figured out which it is yet--you have reductions in your both--
well, in civilian personnel and contractors to support mission 
growth. How are you doing in terms of meeting your needs with 
fewer people helping you from the outside?
    General Shelton. Congressman, as we talked in my office, we 
had a target for insourcing in terms of not only a dollar 
target, but in terms of numbers of civilians that we were 
planning to hire. We have, in the fiscal year 2012 budget, 
reduced that by quite a bit because of targets given to us by 
DOD.
    I should make it clear that we are not letting any 
civilians go, but it is clear that we will not be able to hire 
as many civilians as we had planned to do.
    So, we are going through the analysis right now Air Force-
wide--not just in Air Force Space Command but Air Force-wide--
where we are going to put those precious civilians that we are 
able to hire, put them against the appropriate mission areas, 
probably look at some management realignment within the Air 
Force to accommodate the reductions in the numbers we had 
thought we were going to get. So it is clear that there is a 
lot of management shuffle that we are going to have to do here 
to accommodate the reduction in the growth that we thought we 
were going to have.
    Mr. Lamborn. Okay. Now, shifting gears, for any one of you, 
there was a little mention earlier of the proposed space--
European Union's Code of Conduct for Space. What are advantages 
or disadvantages that any of you see with that?
    Ambassador Schulte. Well, if I could, Mr. Congressman, we 
are carefully evaluating the EU [European Union] Code of 
Conduct--and when I say ``we,'' it is the Department of Defense 
together with the State Department--as a possible means to 
develop transparency and confidence-building measures for 
space. The President's space policy says we will consider arms 
control that meet certain criteria, but we will focus on 
transparency and confidence-building measures. And the EU Code 
is one measure that we are looking at very carefully.
    What the EU Code does, in very basic terms, is it requires 
countries who subscribe to it--it doesn't even require. It 
calls upon them to refrain from actions that would create 
debris. And it also calls upon them to notify various 
activities, including ones that might create debris.
    Its provisions are all consistent with existing practices 
of the Department. We consider ourselves to be a responsible 
space-faring country, and we think it is very reflective of the 
type of practices that we take.
    It doesn't put limits on capabilities. So it doesn't limit 
things like space-based missile defenses. It is full of 
references to the inherent right of self defense which, for the 
Department of Defense, is important. And it is a voluntary 
Code. It is not legally binding. So, if necessary, in crisis or 
worse, it is something that could be put to one side.
    What the Code does for you is it starts creating some rules 
of the road for the international community for the increasing 
number of space-faring countries so we can encourage other 
countries to behave responsibly the way we consider it. So we 
haven't made a final decision on it yet, Mr. Congressman. We 
are carefully assessing the operational impact, together with 
the Intelligence Community.
    I promise you we will make sure our national security 
equities are well protected. But, as Secretary Lynn has said 
publicly recently, we see it as potentially being a positive 
step towards promoting the responsible use of space.
    Mr. Lamborn. Okay, thank you.
    I am going to defer my other questions for the second 
round, but on that I am just concerned--and I think everyone 
here is, as well as everyone sitting on your side of the 
table--that, as the world leader in space, we don't want to 
give up more than we gain. Please keep us very engaged and 
please don't make unilateral decisions that are going to be 
controversial--or at least questionable--without keeping us 
fully apprised. We would appreciate that.
    Thank you.
    Mr. Turner. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Madam Secretary, you got into this with your answer to the 
chairman's first question. I think there has been a perception 
for some time that the U.S. could not do anything in space that 
wasn't over budget, behind schedule, et cetera, et cetera. And 
we have heard lots of excuses over the years, everything from 
``the requirements process and the Pentagon leads to cost 
overruns,'' to ``the acquisition process is all messed up,'' to 
``space is just hard.''
    You described a different approach on this one program, 
but, kind of from a broader level, I would appreciate your view 
as to our ability to implement what we decide to do on-cost, on 
schedule. Can we really do it now? Have we kind of broken the 
back of this trend that everything we tried is late and too 
expensive?
    Secretary Conaton. Well, Mr. Thornberry, I would certainly 
not tell you that we have cracked the code and that every space 
program is going to be perfectly on schedule and on-cost going 
forward, because that wouldn't be a credible answer. I think, 
for all the reasons you articulated, there are systemic things 
that make this challenging, across the acquisition portfolio 
for the Department of Defense, but sometimes, particularly for 
space.
    I think the reason that we are trying this with one system 
this time is to put our effort behind this and see if we can 
achieve this and make it work. We have been clear that our 
intent would be to try this approach again next year for the 
Space Based Infrared System, for SBIRS, for the same reasons. 
But I think we owe you a demonstration that we can start moving 
down this road and show better results. I think, for the 
reasons that we talked about, our feeling is that we have a 
better chance of success with this type of approach, but I 
think we need to demonstrate that to you over time.
    General Shelton, I don't know if--or, Betty, if there is 
anything you want to add.
    General Shelton. The other thing I would add, sir, is we 
are focusing on mature technologies. We are not trying to drive 
the art of the possible with our technologies in the future 
going forward. And I would submit that GPS III is the model 
program. It has met every milestone thus far. It has been 
exactly on schedule, on-cost, and we aim to keep it that way.
    Ms. Sapp. If I may, the NRO has used an evolutionary 
acquisition approach for decades; and when we have gone away 
from that approach, like with FIA [Future Imagery 
Architecture], we have had notable misses. When we have stayed 
with that approach, like we have with our SIGINT [signals 
intelligence] and our COMM [communications] programs and our 
program in IMINT [imagery intelligence] after FIA, we have 
delivered very well. So we think that is a good model for space 
acquisition programs. It is one that we plan to stick with, and 
certainly we understand why the Air Force is moving in that 
direction.
    Mr. Thornberry. Well, particularly in your area, we have 
little margin for error. We have got to perform as planned. And 
I worry in the broader space context about becoming self-
deterred because of cost and delay overruns that will inhibit 
us.
    Ambassador Schulte, let me ask you just briefly. I glanced 
through the space study. I heard what you said in your 
testimony. To me, there were hints of what I would maybe 
describe as ``space control.'' The fact is that any domain 
value has not only been contested, but has to be defended. And 
yet, I am still not sure I really get the sense from the 
strategy that our policy is to do whatever it takes to defend--
I think you said maybe not only the space domain, but the 
advantages we gain from the space domain.
    Do you feel confident not only that the strategy is there, 
but then the plans and programs to implement that defensive 
space against aggressors that are spending a tremendous amount 
of effort to deny us those advantages, are on track to do that?
    Ambassador Schulte. Mr. Congressman, first off, we share 
your concern about countries that are developing a broad range 
of counterspace capabilities. China is foremost amongst those, 
but there are other countries, too. And even as we speak today, 
or at least recently, countries like Iran and Libya were 
jamming commercial satellites. So there is a broad range of 
countries developing counterspace capabilities, and many of 
them look at our advantages in space as vulnerabilities.
    Part of our strategy is to reduce those vulnerabilities and 
protect our systems, protect our capabilities, and try to 
dissuade and deter countries from thinking they would benefit 
from attacking them.
    The strategy, I think, also recommends that space is no 
longer the private reserve of the U.S. and the former Soviet 
Union. We are not up there alone anymore. It is an environment 
that is very challenging. It has changed. There are countries 
with counterspace capabilities. There are a lot more countries 
in space. There are some 60 nations in consortia operating 
spacecraft. And we need to think increasingly about, how do we 
protect the shared domain? And that is part of the reason why, 
in addition to making sure that we protect our systems, we also 
want to create some norms, some rules of the road for space. 
And, in doing that, we want to be a leader.
    I mean, I think increasingly in space--there was a time in 
space where we could kind of lead on our own and, increasingly, 
I think we have to exert that leadership in partnership with 
others, both with our close allies and encouraging other space-
faring countries to act responsibly. But, in the end, we do 
have to protect those critical national security functions that 
we perform through space.
    And the hard part of any strategy isn't writing it. I have 
the easy part. My colleagues here have the hard part, which is 
to execute that strategy, particularly in a budget-constrained 
environment, and figure out, how do we make our constellations 
more resilient against attack? How do we have, perhaps, cross-
domain solutions so that if some of our capabilities in space 
are degraded there are other ways to carry out those mission-
essential functions and to make sure that we sustain those 
advantages?
    So we share your concern about the changing nature of 
space, and we are going to have to work really hard to 
implement the strategy to protect those advantages, and we will 
need your support.
    Thank you.
    Mr. Turner. Going to our second round, the fiscal year 2012 
budget request includes $438 million for space situational 
awareness systems, a decrease of $165 million from last year. 
SSA activities include the Joint Space Operation Center, the 
JSpOC Mission System, JMS, which would enable the Air Force to 
process over 1.5 million space collisions and plan space 
operations.
    General Shelton, can you please describe the challenges 
associated with the JMS acquisition, and how important is this 
improved capability, and what can this subcommittee do to help 
you? And anyone else who would like to comment after you finish 
would be fine.
    General Shelton. Mr. Chairman, the JMS program is very 
important as we establish an ability to take data from 
disparate sources, fuse it together, and present what we would 
call a user-defined operational picture; in other words, what 
is going on in space? Having a good idea of not only what is up 
there, but what the threats are, and be able to understand 
activity--not just keeping track of what is up there, but 
activity real-time. So we have embarked on a journey to equip 
the JSpOC with the right equipment, with the right software, 
with the right processes.
    As we were coming up on Milestone B for JMS, the program 
underwent what is called an independent program assessment. 
That program assessment found some difficulties in the program 
which resulted in pulling back some Requests for Proposals that 
were out on the street to form kind of the early basis of JMS, 
and the Department is in the midst of reviewing that 
independent program assessment and determining the way forward 
for JMS.
    So, at this point in time, I couldn't tell you what we need 
for the future in JMS. I think the Department is going to take 
some time to study this.
    But I can tell you, on the Space Situational Awareness part 
of this, the reason for the decrease this year was we have 
deferred the Space Based space Surveillance system out probably 
a year or two just to make sure we understood the first 
satellite's data usefulness--and it is returning wonderful 
data--and also to push out the second site of the space fence, 
the unwarned, uncued sensor that will tell us what is going on 
and be able to pick up breakups and maneuvers in Low Earth 
Orbit.
    So the situation in SSA is not maybe as the budget would 
show because we still have a very solid plan on the way 
forward.
    Secretary Conaton. Mr. Chairman, can I just add one thing 
to agree with everything that General Shelton has said?
    I want to emphasize, you have a budget request in front of 
you which obviously has funds in it for JMS. We are absolutely 
committed to that capability. The independent assessment that 
General Shelton mentioned will help us refine the ``how'' we 
get to that. So I think we owe you more of a conversation 
before you move to markup, but want to reiterate that we 
support what is in the President's budget request in terms of 
resources that should be laid against this really critical 
activity for General Shelton's command.
    Thank you.
    Mr. Turner. As my last question, I would like to ask your 
assessment of intelligence information and original analysis 
that originates from NASIC. Last year, there was a bump in the 
road as NASIC was restricted for a period from doing some 
original analysis in certain counterspace areas. That issue was 
resolved in favor of competitive analysis, with NASIC 
participating. I wanted to ask if anyone on the panel would 
want to comment with respect to the information available from 
NASIC and its integration, obviously, in overall space 
intelligence systems.
    Secretary Conaton. I will make just a general statement and 
then maybe ask General Shelton from an operational perspective 
how they use that.
    The effort you described by General Burgess to look at 
multiple capabilities and come down on the side of competitive 
analysis, we have tracked that very closely. The Air Force is 
enormously proud of the work that NASIC does. It supports a 
number of communities, not only in the Air Force but throughout 
the Joint Force. So I just wanted to start with a general 
statement of the great work that comes out of that organization 
and turn to General Shelton.
    General Shelton. This is really easy, Mr. Congressman. They 
are our lifeblood. As a former Commander of 14th Air Force and 
the Joint Functional Component Command for Space, we counted on 
NASIC's analysis every day, every day.
    Ambassador Schulte. Mr. Chairman, I would just say in my 
previous job I worked very closely with the Intelligence 
Community on Iran, as you might imagine, and I moved over to do 
space. And I thought, who is going to provide me my 
intelligence and assessment on space? And I learned about 
NASIC, and I have to say I have been impressed at the level of 
intelligence and the level of analysis. And in terms of 
supporting policy and strategy, it has been superb.
    Ms. Sapp. I would just add on that we use NASIC extensively 
and wouldn't know what to do without them. They provide 
invaluable analysis for us.
    Mr. Turner. Thank you all for that.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    If I could, turning back to space acquisition, could you 
give us more detail on the expected savings from the new 
approach to space acquisition, including increasing block buys 
and fixed-price contracting? How do these changes affect our 
out-year funding, and what new authority will the Air Force 
need to implement this approach?
    Secretary Conaton.
    Secretary Conaton. Sure.
    Mr. Langevin, I will try to recap a little bit. For the 
reasons we talked about, the block buy approach, we think, is 
in a position to gain the taxpayer a significant amount of 
savings. What is laid into the budget request right now is the 
analysis done by the CAPE organization inside the Department of 
Defense that is charged with doing independent cost 
assessments.
    Where we go from here is with our acquisition community 
doing a very detailed ``should-cost'' review, which is already 
under way, and then negotiating the best possible contract we 
can with the prime contractors.
    And so, as I mentioned to the chairman, we would like to 
keep you informed of our negotiation strategy as we get ready 
to undertake that work, and then we will continue to update the 
savings that are laid into the budget request as we get greater 
fidelity as we move through that acquisition process. And the 
legislative authority, again, is the advance appropriations 
which allows us to, if you all agree to it, to lay in that non-
spiky profile a more level set of investments year-on-year for 
the AEHF program.
    Mr. Langevin. Thank you.
    To all of our witnesses, the National Security Space 
Strategy calls for exploring private partnerships and hosting 
government capability on commercial aircraft. Could you detail 
for us what further--I know you touched on this a bit, but 
could you further detail for us what we are doing to better 
take advantage of hosted payloads to cut costs while preserving 
mission assurance?
    General Shelton. There is a very good example, Congressman, 
of an infrared payload that is set to launch, probably this 
summer, on a commercial communications satellite. That infrared 
payload will help us with the next generation of our missile 
warning satellites in determining whether or not that is the 
right technology we want to use. So that is a baby step along 
the way.
    We have got lots of history with hosted payloads. They have 
just been hosted inside the government--hosted payloads with 
the NRO, hosted payloads with NASA, them hosting payloads on 
our platforms. So we know how to do this. It is just whether or 
not this will make it on a commercial model, because the 
placement of the satellite is driven by the commercial 
business, as opposed to where we might need it for national 
security needs. So it is a thing that we are exploring. We will 
see how this works out with this first one, and we will 
continue to explore opportunities. We think there is great 
potential here.
    Mr. Langevin. Very good. Anyone else care to----
    Ms. Sapp. It is difficult in this environment, but we do 
use lots of partnerships everywhere, so we will continue to 
explore those opportunities as well.
    Mr. Langevin. Thank you. That is it for my questions.
    Before I turn back, though, Mr. Chairman, I would just like 
to recognize Rudy Barnes, who was the staff director for the 
Subcommittee on Strategic Forces. I just saw him in the 
audience after we had started the hearing and wanted to welcome 
Rudy back to the committee as well.
    Secretary Conaton. I stole him, Mr. Langevin. Sorry about 
that.
    Mr. Turner. I, too, want to recognize you. Thank you for 
your work. And you shouldn't sit so much in the back. It did 
take us a little while to figure out that you were sitting back 
there.
    Mr. Lamborn.
    Mr. Lamborn. Thank you.
    For any one of you, recent reports indicate that a 
commercial telecommunications company called LightSquared is 
developing terrestrial broadband communications technology that 
has the potential to interfere with terrestrial reception of 
GPS signals. Please discuss the magnitude of the impact that 
this might have on the Department of Defense. What is being 
done to mitigate this potential conflict, and how can we avoid 
conflicts such as this in the future? And is someone having 
interaction with the FCC?
    General Shelton. Let me go back, Congressman, in history a 
little bit. This was originally designed as largely a space-
based effort with terrestrial augmentation. It has now shifted 
in the business model to be a terrestrial-based network with 
space augmentation. Probably 40,000--their business plan calls 
for 40,000 towers around the country, many of them concentrated 
in urban areas.
    Our analysis to date--I shouldn't say ``our'' analysis. A 
large commercial manufacturer of GPS receivers' analysis has 
said that signal from GPS will be effectively jammed by these 
towers, both in airborne and terrestrial applications, so much 
so that there has been an industry association that has come up 
on the net to express concern. The Deputy Assistant Secretary 
of Defense and the DOT [Department of Transportation] Secretary 
have also signed a letter back to the FCC expressing concern.
    There is technical analysis under way. I think that 
analysis is due to be completed to the FCC by the June time 
frame.
    So all the right work is going on. What we are looking for 
now from the company is actual hardware that they plan to use 
so that we can collect empirical data, as opposed to analytical 
data, and determine, kind of once and for all, whether or not 
this is going to jam the signal. We believe from what we have 
seen thus far that virtually every GPS receiver out there would 
be affected.
    Mr. Lamborn. And if it does bear out that there is a 
problem, what happens next?
    General Shelton. That is up to the FCC to determine whether 
or not to grant them a license to operate in that particular 
spectrum. So, more to come.
    Mr. Lamborn. Okay. Thank you.
    It was unfortunate, but NASA recently had a satellite that 
failed to reach orbit, and that is going to obviously hurt 
science and research. Does that affect any of your missions?
    General Shelton. Congressman, we have three upcoming 
Minotaur launches that we believe have common hardware--may 
have common hardware to what we believe was the failure mode. 
The payload fairing, which is the very tip of the rocket that 
covers the payload, once you get up out of the sensible 
atmosphere, that separates and then exposes the satellite, and 
then the satellite eventually gets deployed. But that is just 
extra weight carrying uphill, so you want to get rid of that as 
quickly as you can.
    What happened on the NASA Glory launch is that payload 
fairing did not separate. The separation system was redesigned 
2 years ago. We believe the parts that did not function--
although the investigation is just starting--but we believe the 
parts that did not function properly from first indications are 
common to the boosters that we have coming up, two in May and 
one in August. So, more work to be done.
    Mr. Lamborn. Thank you.
    And, finally, Ms. Sapp, NRO does some great work for our 
national defense. To what extent can you tell us, in an 
unclassified setting, how NRO is working to better integrate 
intelligence to support the warfighter? Just a general 
question.
    Ms. Sapp. We take a great deal of pride in that. We are 
known for our space systems, but we do a lot in terms of 
integrating space with other domains and in integrating 
multiple sources of intelligence on the ground. And in the 
opening statement I used an example where we did that to 
support a very detailed geolocation to provide actionable 
intelligence to troops. And that is something we take great 
pride in.
    Mr. Lamborn. Okay. Thank you all for being here.
    Mr. Turner. Thank you so much. I appreciate both your 
leadership in this area and the information you are providing 
for the committee.
    And understanding, of course, that this is an ongoing 
dialogue as we prepare to review the budget and look toward 
preparing our portion of the National Defense Authorization 
Act, Ambassador Schulte, I want to thank you for having 
participated in what is this subcommittee's ``101'' sessions. 
We have begun briefings where we have asked agencies that 
interface with this committee to come forward and give members, 
prior to the budgetary committees and substantive hearings, 
base-level information. We appreciate you participating in 
those. We think they are very helpful for the subcommittee and 
the members.
    With that, thank you all, and we will be adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 15, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5589.073
    
    [GRAPHIC] [TIFF OMITTED] T5589.074
    
    <greek-l>N.B.: not using Turner statement, graphics 

[GRAPHIC] [TIFF OMITTED] T5589.003

[GRAPHIC] [TIFF OMITTED] T5589.004

[GRAPHIC] [TIFF OMITTED] T5589.005

[GRAPHIC] [TIFF OMITTED] T5589.006

[GRAPHIC] [TIFF OMITTED] T5589.007

[GRAPHIC] [TIFF OMITTED] T5589.008

[GRAPHIC] [TIFF OMITTED] T5589.009

[GRAPHIC] [TIFF OMITTED] T5589.010

[GRAPHIC] [TIFF OMITTED] T5589.011

[GRAPHIC] [TIFF OMITTED] T5589.012

[GRAPHIC] [TIFF OMITTED] T5589.013

[GRAPHIC] [TIFF OMITTED] T5589.014

[GRAPHIC] [TIFF OMITTED] T5589.015

[GRAPHIC] [TIFF OMITTED] T5589.016

[GRAPHIC] [TIFF OMITTED] T5589.017

[GRAPHIC] [TIFF OMITTED] T5589.018

[GRAPHIC] [TIFF OMITTED] T5589.019

[GRAPHIC] [TIFF OMITTED] T5589.020

[GRAPHIC] [TIFF OMITTED] T5589.021

[GRAPHIC] [TIFF OMITTED] T5589.022

[GRAPHIC] [TIFF OMITTED] T5589.023

[GRAPHIC] [TIFF OMITTED] T5589.024

[GRAPHIC] [TIFF OMITTED] T5589.025

[GRAPHIC] [TIFF OMITTED] T5589.026

[GRAPHIC] [TIFF OMITTED] T5589.027

[GRAPHIC] [TIFF OMITTED] T5589.028

[GRAPHIC] [TIFF OMITTED] T5589.029

[GRAPHIC] [TIFF OMITTED] T5589.030

[GRAPHIC] [TIFF OMITTED] T5589.031

[GRAPHIC] [TIFF OMITTED] T5589.032

[GRAPHIC] [TIFF OMITTED] T5589.033

[GRAPHIC] [TIFF OMITTED] T5589.034

[GRAPHIC] [TIFF OMITTED] T5589.035

[GRAPHIC] [TIFF OMITTED] T5589.036

[GRAPHIC] [TIFF OMITTED] T5589.037

[GRAPHIC] [TIFF OMITTED] T5589.038

[GRAPHIC] [TIFF OMITTED] T5589.039

[GRAPHIC] [TIFF OMITTED] T5589.040

[GRAPHIC] [TIFF OMITTED] T5589.041

[GRAPHIC] [TIFF OMITTED] T5589.042

[GRAPHIC] [TIFF OMITTED] T5589.043

[GRAPHIC] [TIFF OMITTED] T5589.044

[GRAPHIC] [TIFF OMITTED] T5589.045

[GRAPHIC] [TIFF OMITTED] T5589.046

[GRAPHIC] [TIFF OMITTED] T5589.047

[GRAPHIC] [TIFF OMITTED] T5589.048

[GRAPHIC] [TIFF OMITTED] T5589.049

[GRAPHIC] [TIFF OMITTED] T5589.050

[GRAPHIC] [TIFF OMITTED] T5589.051

[GRAPHIC] [TIFF OMITTED] T5589.052

[GRAPHIC] [TIFF OMITTED] T5589.053

[GRAPHIC] [TIFF OMITTED] T5589.054

[GRAPHIC] [TIFF OMITTED] T5589.055

[GRAPHIC] [TIFF OMITTED] T5589.056

[GRAPHIC] [TIFF OMITTED] T5589.057

[GRAPHIC] [TIFF OMITTED] T5589.058

[GRAPHIC] [TIFF OMITTED] T5589.059

[GRAPHIC] [TIFF OMITTED] T5589.060

[GRAPHIC] [TIFF OMITTED] T5589.061

[GRAPHIC] [TIFF OMITTED] T5589.062

[GRAPHIC] [TIFF OMITTED] T5589.063

[GRAPHIC] [TIFF OMITTED] T5589.064

[GRAPHIC] [TIFF OMITTED] T5589.065

[GRAPHIC] [TIFF OMITTED] T5589.066

[GRAPHIC] [TIFF OMITTED] T5589.067

[GRAPHIC] [TIFF OMITTED] T5589.068

[GRAPHIC] [TIFF OMITTED] T5589.069

[GRAPHIC] [TIFF OMITTED] T5589.070

[GRAPHIC] [TIFF OMITTED] T5589.071

[GRAPHIC] [TIFF OMITTED] T5589.072

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Discuss the progress of the Space Protection Program 
(SPP). What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    Secretary Conaton and General Shelton. [The information referred to 
is classified and is retained in the subcommittee files.]
    Mr. Turner. Have you identified any gaps in space intelligence? 
What are you doing to address those shortfalls?
    Secretary Conaton and General Shelton. An early 2010 USAF 
Intelligence, Surveillance and Reconnaissance working group review 
identified several space intelligence gaps. Since then, we have 
collaborated with Air Force Materiel Command and the primary Air Force 
intelligence organizations--the National Air and Space Intelligence 
Agency (NASIC) and the Air Force ISR Agency (AFISRA)--as well as 
others, to analyze and identify potential materiel and non-materiel 
solutions. Together, the materiel and non-materiel solutions will 
represent a corporate Air Force recommendation to integrate AFSPC ISR 
data into the warfighting Distributed Common Ground Systems 
Architecture.
    Mr. Turner. Discuss the progress of the Space Protection Program 
(SPP). What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    Ambassador Schulte. The SPP was established in 2008 as an Air Force 
Space Command (AFSPC) and National Reconnaissance Office (NRO) 
partnership designed to secure the ``depth and breadth'' of the 
nation's knowledge of how to plan proactively for and respond to 
threats against U.S. space systems. The SPP advises senior DoD and 
intelligence community leaders about threat impacts on space systems 
and provides informed options and recommendations for protecting 
against those threats.
    Both our view of the space protection areas that continue to need 
attention and our assessment of the cooperation between DoD and the IC 
are outlined in detail in the 2010 update to the SPS, which will be 
delivered to Congress shortly.
    [A portion of the information referred to is for official use only 
and is retained in the subcommittee files.]
    Mr. Turner. Have you identified any gaps in space intelligence? 
What are you doing to address those shortfalls?
    Ambassador Schulte. [The information referred to is for official 
use only and is retained in the subcommittee files.]
    Mr. Turner. Discuss the progress of the Space Protection Program 
(SPP). What have been its accomplishments since its establishment in 
2008 and, what space protection areas continue to need the greatest 
attention? What is your assessment of how the defense and intelligence 
community have worked together to support the activities of this 
office?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
    Mr. Turner. Have you identified any gaps in space intelligence? 
What are you doing to address those shortfalls?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. When does the Navy expect to make a decision on MUOS 
and what are the best options for increasing communications capability 
in addition or until MUOS is operational? In addition, the Australian 
Defense Force recently purchased a hosted payload for $350 million, 
saving about $150 million, to augment their UHF capabilities. Have you 
considered buying a payload as a way to augment our communications 
capabilities cost-efficiently?
    Secretary Conaton and General Shelton. The Air Force defers this 
question because it would be better addressed by the Navy. For more 
information on the Navy's MUOS program, the Air Force recommends 
contacting the Deputy CNO for Information Dominance and the SPAWAR 
Program Exec Officer for Space.
    Ms. Sanchez. What is your long-term view on transforming and 
sustaining an affordable launch capability?
    Secretary Conaton and General Shelton. A steady launch vehicle 
production rate is crucial for a healthy launch industrial base. Air 
Force, inter-agency and independent reviews have recommended an annual 
minimum production rate of booster cores plus associated upper stage 
engines, payload fairings, and solid rockets to sustain our spacelift 
industrial base. Based on these studies, the Air Force is developing a 
new EELV acquisition strategy targeted to reduce costs and help sustain 
the industrial base. The strategy includes near-term block buys of 
Atlas and Delta vehicles (and more efficient buying practices that will 
stabilize production rates. A key element of this strategy is an inter-
agency commitment to a minimum of eight booster cores per year--five by 
the Department of Defense and three by the National Reconnaissance 
Office (NRO).
    Additionally, the Air Force recently signed a joint Memorandum of 
Agreement with NRO and NASA designed to ensure a consistent position on 
opportunities, certification, and requirements for potential new 
entrants. We expect to release new entrant criteria by late this 
summer, and we expect to allow new entrants to compete for near-term 
launch missions.
    In addition, in March of this year, the Air Force office of the 
Assistant Secretary for Acquisition established the Program Executive 
Officer for Space Launch (AFPEO/SL). The new AFPEO/SL is charged with 
executing our new strategy and balancing space-lift needs, budgetary 
constraints, and our efforts to support a healthy and competitive US 
launch industrial base.
    Ms. Sanchez. There has been concern about potential interference 
with our GPS signal and about what level of study the FCC will require 
before deciding on issuing a license. Could you give us an update on 
the next steps to ensure that we avoid any disruption to our GPS 
capability?
    Secretary Conaton and General Shelton. Per the FCC order of 26 Jan 
11, LightSquared has formed a Technical Working Group co-chaired by the 
GPS Industry Council. This working group has strong participation from 
civil and military GPS experts and includes government agency 
representatives and observers. The test results from LightSquared are 
due back to the FCC by 15 Jun 11. Independent of the LightSquared 
working group, the U.S. Government has established a test team, which 
will test military receivers and a representative sample of civil and 
commercial receivers. The results of the Government tests will be 
completed prior to 15 Jun 11 to keep pace with the LightSquared 
commercial tests. The FCC will evaluate the LightSquared test results 
to determine an appropriate way forward. The Government will submit 
their independent test results to the FCC for consideration in this 
determination. The process will be complete once the FCC, after 
consultation with National Telecommunications and Information 
Administration, concludes that the harmful interference concerns have 
been resolved and sends a letter to LightSquared stating that the 
process is complete.
    Ms. Sanchez. Could you give us your thoughts on the way forward for 
JMS and when this decision will be made?
    General Shelton. As we approached JMS Milestone B, the program 
underwent an Independent Program Assessment. That assessment identified 
program challenges which resulted in suspending High Accuracy Catalog 
and Integration and Sustainment contracts requests for proposal. We are 
reviewing that Independent Program Assessment to determine the 
appropriate way forward for JMS. We will bring that decision through 
the Department and to the Congress as soon as possible.
    Ms. Sanchez. When does the Navy expect to make a decision on MUOS 
and what are the best options for increasing communications capability 
in addition or until MUOS is operational? In addition, the Australian 
Defense Force recently purchased a hosted payload for $350 million, 
saving about $150 million, to augment their UHF capabilities. Have you 
considered buying a payload as a way to augment our communications 
capabilities cost-efficiently?
    Ambassador Schulte. I defer this question to the Navy. For more 
information on the Navy's MUOS program, please contact the Deputy CNO 
for Information Dominance and the SPAWAR Program Executive Officer for 
Space.
    Ms. Sanchez. What is your long-term view on transforming and 
sustaining an affordable launch capability?
    Ambassador Schulte. Assured access to space is foundational to our 
National Security Space Strategy. Transforming and sustaining 
affordable launch capability require that we focus on both the 
availability of affordable launch vehicles and on the infrastructure of 
our launch facilities and ranges.
    As noted in the National Security Space Strategy, the Department 
seeks to foster a U.S. space industrial base, including launch 
services, that is robust, competitive, flexible, and healthy, and that 
delivers capabilities on time and on budget. We understand that the 
launch industry works better with a predictable schedule that avoids 
large swings in demand. We think that the Air Force proposal to conduct 
block buys of Evolved Expendable Launch Vehicles will improve the 
stability of the launcher production schedule, which should result in 
cost savings.
    We are also enthusiastic about the prospects for increased 
competition in the launch market, because healthy competition can 
foster innovation and efficiencies that translate to lower launch 
costs. It is important that we provide a clear path to certification 
for new companies, allowing them a fair opportunity to compete based 
upon value, capability, and performance.
    Our primary space launch facilities rely on an aging infrastructure 
employing unique equipment that is becoming increasingly difficult to 
maintain as it ages. Launch facilities at Cape Canaveral Air Force 
Station in Florida and at Vandenberg Air Force Base in California each 
have the capability to support Evolved Expendable Launch Vehicles. In 
addition, the Department has launched smaller national security space 
missions from the Kodiak Launch Complex in Alaska, from NASA's Wallops 
Island flight facility in Virginia, and from the Reagan Test Site in 
the Marshall Islands. These smaller sites offer additional flexibility 
and resilience for our launch enterprise.
    We are looking at the most efficient and effective ways to 
modernize our launch infrastructure. DoD and NASA are co-leading the 
development of a Launch Infrastructure Modernization plan. We expect 
that this plan will take a holistic view of the U.S. space launch bases 
and ranges, and will suggest ways to sustain and improve capabilities. 
We want to move away from a reliance on customized systems and adopt a 
versatile launch infrastructure capable of accommodating a variety of 
boosters and launch profiles with minimal or no reconfiguration.
    Ms. Sanchez. There has been concern about potential interference 
with our GPS signal and about what level of study the FCC will require 
before deciding on issuing a license. Could you give us an update on 
the next steps to ensure that we avoid any disruption to our GPS 
capability?
    Ambassador Schulte. DoD is committed to working with the FCC to 
ensure that GPS can continue its critical roles in national security, 
public safety, and the economy. The FCC has conditionally granted a 
waiver to LightSquared LLC, a mobile satellite services provider, which 
will allow them to provide terrestrial-based, cellular-type phone 
communications services on a frequency band immediately adjacent to the 
GPS Link 1 band. As a condition of the grant of this waiver, 
LightSquared is required to establish a working group to study GPS 
interference concerns and report the group's results and mitigation 
measures to the FCC by June 15, 2011. This must take place before the 
FCC permits LightSquared to launch its service commercially.
    DoD determined that military testing was needed to ensure no 
disruption of GPS capability and that classified GPS capabilities or 
vulnerabilities are not exposed. DoD is conducting these tests, 
independent of the working group process, led by the Air Force's 746th 
Test Squadron and the Naval Space Warfare System Center. The level of 
interference to GPS posed by LightSquared is still being analyzed by 
DoD.
    Ms. Sanchez. Is there any update you can give us on internal 
Executive Branch discussions about discussions related to export 
control reform, and how you plan to balance U.S. and international 
security without over-constraining opportunities for U.S. exports, how 
these might affect the space industry?
    Ambassador Schulte. We are making significant progress toward 
reforming the U.S. export control system in order to make it more 
effective, efficient, and transparent. Our reform effort is being 
conducted in three phases and focuses on the ``four singles'' of export 
control reform: a single control list, a single licensing agency, a 
single export enforcement coordination center, and a single U.S. 
Government-wide information technology (IT) system for licensing. In 
Phase I, we have completed important regulatory changes to encryption 
and dual-national controls, and Phase II activities are well underway. 
For example, we have been making significant progress toward the 
creation of a single control list.
    The Department of Defense has taken the lead in rewriting the U.S. 
Munitions List (USML), including the category that deals with 
spacecraft. We will also begin revising and ``tiering'' dual-use 
controls in the near future so that the USML and the dual-use Commerce 
Control List can be merged into one. On the single IT system, the 
Department has been designated as the Executive Agent for the new U.S. 
Government-wide export licensing system, which will be based on DoD's 
USXPORTS system. We are working with the Departments of Commerce and 
State to establish connectivity with this system. The Executive Order 
establishing the Enforcement Coordination Center was signed by the 
President in November 2010, and those implementation efforts are 
underway.
    We have not completed our rewrite of controls on spacecraft in the 
USML; therefore, I cannot provide a detailed assessment at this time of 
the effects on the U.S. space industry. However, consistent with our 
overall approach to export control reform, I expect that we will 
propose ``higher fences around fewer items,'' and increase transparency 
and predictability, so that the U.S. space industry will be able to 
compete globally more efficiently. Current U.S. law limits the 
flexibility of the President in this area. Energizing the space 
industrial base, including through export control reform, is a key 
objective of the new National Security Space Strategy.
    Ms. Sanchez. What are the benefits to the U.S. participating and 
joining the EU-proposed Code of Conduct, and what are the downsides of 
not participating?
    Ambassador Schulte. There are many potential benefits to the Code 
of Conduct for Space (the ``Code''). The Code calls on subscribing 
States to refrain from activities that create long-lived debris and to 
notify others of certain space activities, including those that might 
risk creating debris. Space debris is a growing concern for all space-
faring nations.
    The Code is not legally binding and is consistent with U.S. 
interests in space. The provisions in the Code are similar to other 
space norms that the U.S. Government has already endorsed: pre-launch 
notifications under the Hague Code of Conduct, UN Debris Mitigation 
Standards, and safety of flight practices to share collision warning 
information.
    The Code clearly recognizes a nation's inherent right of self-
defense. This preserves considerable flexibility to implement the 
National Security Space Strategy, signed by the Secretary of Defense 
and the Director of National Intelligence, to conduct necessary 
operations in crisis or war. Supporting the Code affords the United 
States an opportunity to lead by example and to shape behaviors in 
space while simultaneously not affecting the development of national 
security capabilities. As Secretary Lynn recently said publicly, ``we 
think [the Code is] a positive. It has a very strong potential of being 
a positive step'' toward promoting responsible use of space.
    The Department is conducting a detailed assessment of the Code to 
help inform the U.S. position and determine what, if any, modifications 
would be necessary to be able to support the Code. The Department, 
together with the Intelligence Community, will ensure that our national 
security interests are fully protected.
    Ms. Sanchez. When does the Navy expect to make a decision on MUOS 
and what are the best options for increasing communications capability 
in addition or until MUOS is operational? In addition, the Australian 
Defense Force recently purchased a hosted payload for $350 million, 
saving about $150 million, to augment their UHF capabilities. Have you 
considered buying a payload as a way to augment our communications 
capabilities cost-efficiently?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
    Ms. Sanchez. What is your long-term view on transforming and 
sustaining an affordable launch capability?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
    Ms. Sanchez. There has been concern about potential interference 
with our GPS signal and about what level of study the FCC will require 
before deciding on issuing a license. Could you give us an update on 
the next steps to ensure that we avoid any disruption to our GPS 
capability?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS

    Mr. Franks. Does the DSCOVR mission meet the Air Force's 
requirements for solar weather prediction?
    Secretary Conaton. Yes, the DSCOVR mission will meet the Air 
Force's solar wind monitoring requirements that are fulfilled by NASA's 
Advanced Composition Explorer (ACE) satellite today. However, DSCOVR 
can't meet the full range of solar weather prediction requirements by 
itself. DSCOVR will be a critical element of a family of solar weather 
collectors that, when used jointly, will provide comprehensive 
characterization and forecasts of solar weather events.
    Mr. Franks. What is the Air Force's assessment regarding the 
service life of the DSCOVR spacecraft?
    Secretary Conaton. The Air Force has not independently assessed the 
service life of the DSCOVR spacecraft. However, NASA has indicated that 
DSCOVR has a two year design life and is being refurbished to fulfill a 
planned five year mission.
    Mr. Franks. Did the Air Force propose DSCOVR as a solution to their 
solar weather requirements?
    Secretary Conaton. The Air Force was part of an interagency 
assessment team that recommended DSCOVR as the preferred solution to 
fulfill near term solar wind monitoring continuity requirements. The 
interagency team also considered potential commercial, international, 
and dedicated US Government options. The DSCOVR solution was determined 
to be the lowest risk solution.
    Mr. Franks. Was the Air Force a part of any inter-agency 
discussions about the DSCOVR mission?
    Secretary Conaton. Yes, the Air Force participated in the 
interagency analysis team tasked by the Office of Science and 
Technology Policy (OSTP) to recommend a way ahead to continue the ACE 
solar wind monitoring capability. The group was known as the Committee 
for Space Environmental Sensor Mitigation Options (CSESMO) and was 
chartered under the Office of the Federal Coordinator for Meteorology 
(OFCM).
    Mr. Franks. Does the Air Force have concerns about the DSCOVR 
mission?
    Secretary Conaton. No, the Air Force agrees with the findings and 
recommendations of the Committee for Space Environmental Sensor 
Mitigation Options (CSESMO) that DSCOVR is the best solution to address 
the near term solar wind data collection continuity requirements.
    Mr. Franks. Has the Air Force done a risk assessment of the DSCOVR 
spacecraft?
    Secretary Conaton. No, the Air Force did not perform a risk 
assessment of the DSCOVR spacecraft. However, NASA performed a risk 
assessment of the DSCOVR spacecraft and documented their findings and 
recommendations in ``DSCOVR-The Serotine Report,'' dated January 14, 
2009.
    Mr. Franks. Has the Air Force signed a MOA or MOU with NOAA 
regarding their participation in this mission?
    Secretary Conaton. The Air Force, NOAA, and NASA are currently 
discussing and negotiating a draft MOA to codify the respective agency 
roles and responsibilities. The Air Force expects that our primary 
responsibility will relate to the launch of the DSCOVR satellite.
    Mr. Franks. Has the Air Force signed any contracts for a launch 
vehicle for DSCOVR?
    Secretary Conaton. No, but the DSCOVR launch vehicle will go on 
contract in FY12. DSCOVR is expected to launch in FY14. Non-EELV launch 
vehicles are typically put on contract 18-24 months prior to launch, 
therefore, the DSCOVR launch vehicle will be put on contract sometime 
in FY12. There is $135M in the FY12 President's Budget to support this 
activity.
    Mr. Franks. Does the Air Force have a follow-on plan after the 
DSCOVR mission to maintain a solar weather capability?
    Secretary Conaton. In accordance with the Committee for Space 
Environmental Sensor Mitigation Options (CSESMO) recommendations, the 
Air Force and NOAA are considering commercial data buy options for a 
DSCOVR follow-on capability. Non-commercial options will also be 
considered if it is determined that no viable commercial alternatives 
will be available when needed near the end of this decade.
    Mr. Franks. I am concerned about the setbacks of the Space-Based 
Infrared System (SBIRS) program, which is designed to replace the aging 
Defense Support Program (DSP). I understand that the current total 
program cost estimate is about 3 times more than what was originally 
estimated and has experienced significant schedule delays. I would like 
to know whether this is money well spent or if it's time to consider 
other options; and, related to this question, are there other feasible 
options, or are we stuck with waiting for SBIRS and the resulting gap 
in missile warning and defense?
    Secretary Conaton and General Shelton. The SBIRS program 
experienced a number of technical and programmatic issues leading to 
significant cost and schedule overruns earlier in the program. Today, 
the program has stable requirements and we have resolved the early 
issues that hindered initial development. Previously, the SBIRS program 
delivered two HEO payloads to orbit, providing exceptional, high-
quality data to the warfighter. Recently, the first GEO satellite 
(SBIRS GEO-1) was delivered to Cape Canaveral in March 2011 and is 
preparing for launch in May 2011. Production of SBIRS GEO-2 is nearly 
complete and launch is scheduled for FY12. Current Air Force plans for 
SBIRS follow-on include production of two additional HEO payloads, as 
well as SBIRS GEO-3 and GEO-4. Pending Congressional and USD(AT&L) 
approval, the Air Force also intends to procure SBIRS GEO-5 and GEO-6 
through an efficient block-buy approach, beginning in FY13.
    Throughout SBIRS program history, alternatives have been considered 
in light of development issues, including the Alternate Infrared 
Satellite System (AIRSS) and Third Generation Infrared Surveillance 
(3GIRS). Based on SBIRS progress, AIRSS was refocused from a competing 
program to concentrate on technology maturation. In light of 
Congressional marks and competing priorities, the DoD terminated the 
3GIRS program beginning in FY11. The mature Commercially Hosted 
Infrared Payload (CHIRP) demonstration was transferred from 3GIRS to 
the SBIRS program for completion. CHIRP is expected to launch in late 
2011 and will perform risk reduction and evaluation of Wide-Field-of-
View sensors. With current on-orbit DSP and HEO assets and the upcoming 
launch of GEO-1, SBIRS is ready to meet the nation's missile warning, 
missile defense, battlespace awareness, and technical intelligence 
needs.
    Mr. Franks. I am concerned about the setbacks of the Space-Based 
Infrared System (SBIRS) program, which is designed to replace the aging 
Defense Support Program (DSP). I understand that the current total 
program cost estimate is about 3 times more than what was originally 
estimated and has experienced significant schedule delays. I would like 
to know whether this is money well spent or if it's time to consider 
other options; and, related to this question, are there other feasible 
options, or are we stuck with waiting for SBIRS and the resulting gap 
in missile warning and defense?
    Ambassador Schulte. With current on-orbit DSP and highly elliptical 
orbit (HEO) assets and the upcoming launch of the first geosynchronous 
earth orbit (GEO) satellite, SBIRS is ready to meet the nation's 
missile warning, missile defense, battlespace awareness, and technical 
intelligence needs. The SBIRS program experienced a number of technical 
and programmatic difficulties, leading to significant cost and schedule 
overruns. Today, the program has stable requirements, and we have 
resolved the early issues that hindered initial development. The SBIRS 
program has delivered two HEO payloads to orbit, providing exceptional 
quality data to the warfighter. Further, GEO-1 was delivered to Cape 
Canaveral in March 2011 and is preparing for launch in May 2011. The 
remainder of the SBIRS constellation and replenishment vehicles will be 
acquired through follow-on production efforts.
    Throughout SBIRS program history, alternatives have been considered 
in light of development issues. A mature demonstration, the 
Commercially Hosted Infrared Payload (CHIRP), is expected to launch in 
late 2011 and will perform risk reduction and evaluation of Wide-Field-
of-View sensors. In addition, the Under Secretary of Defense for Policy 
is pursuing Departmental assessments of alternative approaches to 
enhance the resiliency of the SBIRS constellation through low-cost 
augmentation capabilities to meet the objectives of the National 
Security Space Strategy.
    Mr. Franks. I am concerned about the setbacks of the Space-Based 
Infrared System (SBIRS) program, which is designed to replace the aging 
Defense Support Program (DSP). I understand that the current total 
program cost estimate is about 3 times more than what was originally 
estimated and has experienced significant schedule delays. I would like 
to know whether this is money well spent or if it's time to consider 
other options; and, related to this question, are there other feasible 
options, or are we stuck with waiting for SBIRS and the resulting gap 
in missile warning and defense?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. In Fiscal Year 2009, the Air Force received a $28 
million reprogramming approval to fund the electronic scheduling and 
dissemination upgrade to the Air Force Satellite Control Network at the 
22nd Space Operation Squadron. This reprogramming was a bridge to the 
Fiscal Year 2012 budget where the balance of the requirement was to be 
funded. Unfortunately, this was not included in this year's budget. I 
sent a letter to the Secretary of the Air Force on June 28, 2010, 
requesting an update on this program. I also visited the 50th Space 
Wing on July 12, 2010, to see the great work the Air Force is 
performing at Schriever Air Force Base as well as to learn how 
important this upgrade is for DoD. What is the current funding and 
program status of this critical upgrade?
    General Shelton. An FY09 Omnibus reprogramming authorization 
provided $28M. The FY12 President's Budget Request (PBR) baseline 
provides for $1.3M in FY12.
    The current ESD 3.0 Block 1 effort completed Critical Design Review 
in June 2010 and is in the build and test phase. Additionally, the 
developmental system completed, integrated and tested four software 
builds as well as completed an integrated baseline review in Oct 10.
    Mr. Lamborn. What are your plans for this program thru FY12?
    General Shelton. We intend to continue incrementally funding 
development efforts through a reprogramming action in FY12.
    Mr. Lamborn. What will be the operational impact to the Air Force 
Satellite Control Network if this upgrade is not implemented?
    General Shelton. Our plan is to complete ESD 3.0; however, if 
unforeseen circumstances prevent that, we would continue to rely on the 
legacy system until an enduring solution was provided. As 
supportability of the legacy system degrades, the work load would 
necessarily become a manual task.
    Mr. Lamborn. Since the Rapid Attack, Identification, Detection and 
Reporting System (RAIDRS) is a Program of Record, what are your plans 
in fielding this system?
    General Shelton. Rapid Attack Identification Detection and 
Reporting System (RAIDRS) Block 10, is a suite of 5 RAIDRS 
Transportable Ground Segments (RTGS) strategically located around the 
world which provide USSTRATCOM with global electromagnetic interference 
detection and enables geolocation of the source of that interference. 
The RTGS's will be located in Florida, Japan, Hawaii, Germany and 
CENTCOM in Southwest Asia. Initial Operating Capability is scheduled 
for 4th quarter, FY12, while Full Operating Capability is scheduled for 
4th quarter, FY 13.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. I understand that the Launch Capability element of the 
EELV budget pays for the facility and support costs and launch 
operations.
    <bullet>  Can you tell me why the Capability budget increased from 
$771 M in FY 11 to $928 M in FY 12?
    <bullet>  Can you provide a more detailed breakout of the elements 
and cost underlying this large number?
    <bullet>  Can you provide me with a much more detailed breakout of 
the FY 12 EELV Launch Capability budget?
    Secretary Conaton. EELV launch capability (ELC) costs have indeed 
increased from the FY11 PB to the FY12 PB. Costs for sustaining launch 
capability (infrastructure, engineering skills) for 8 missions a year 
is paid by the Air Force and NRO, and has historically been shared on a 
70-30 basis (70 percent Air Force, 30 percent NRO). However, starting 
in FY12, the Air Force share has increased from 70 to 75 percent, 
resulting in a 5% increase or a $55M increase over FY11PB. The Air 
Force also received approximately $100M per year between 2006-2011 in 
unbilled launch capability and processing work as a result of the 
transition from earlier fixed price launch service contracts. These so 
called ``contract credits and considerations'' have now expired, 
leading to the higher costs for FY12.


                              FY12 EELV Launch Capability Budget Estimate (AF-only)
----------------------------------------------------------------------------------------------------------------
                                     ELC Elements                                            %            $
----------------------------------------------------------------------------------------------------------------
Mission Integration                                                                      3%           27.8
----------------------------------------------------------------------------------------------------------------
Mission Assurance                                                                        1%            9.3
----------------------------------------------------------------------------------------------------------------
Mission Unique Development/design                                                        1%            9.3
----------------------------------------------------------------------------------------------------------------
Systems Engineering & Program Management (SEPM)                                         38%          353.0
----------------------------------------------------------------------------------------------------------------
Supplier Readiness                                                                      14%          130.0
----------------------------------------------------------------------------------------------------------------
Transportation                                                                           2%           18.7
----------------------------------------------------------------------------------------------------------------
Launch Operations                                                                       28%          259.2
----------------------------------------------------------------------------------------------------------------
Depreciation                                                                            13%          120.8
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER

    Mr. Ruppersberger. The Air Force's Evolutionary Acquisition for 
Space Efficiency (EASE) initiative seems like a sound way to reduce 
costs by securing block buys of space systems. However the space 
programs selected for FY12 and FY13 application of EASE--the Space 
Based Infra-Red System (SBIRS) and the Advanced Extremely High 
Frequency (AEHF) satellite--are both far over budget and well behind 
schedule. The impression this creates is that poor performance on space 
programs will be ``rewarded'' with block buys. Does the Department plan 
to apply the EASE block buy approach to well-performing space programs, 
and if so, what are they and when do you think you will do so?
    Secretary Conaton. I understand your concern with the past 
performance of the AEHF and SBIRS acquisition efforts. Indeed, the Air 
Force has proposed the Evolutionary Acquisition for Space Efficiency 
(EASE) approach going forward to address specific root causes of some 
of those difficulties. The EASE concept is designed to drive down 
costs, improve stability in the space industrial base, ensure stable 
investment in technologies that can lower risk for future programs, and 
achieve efficiencies through block buys of satellites. In providing 
industrial base stability, we expect the contractor to come in with 
significantly lower prices. Despite its past problems, the AEHF 
satellite program is a good candidate for implementation of EASE, 
because the high-risk development phase is complete, and the satellite 
design is mature. In addition, the requirements are solid and an 
experienced government and contractor team is in place. As for the 
program itself, one satellite has launched, one is in storage awaiting 
launch, and two more are in various stages of production. The block buy 
of satellites 5 and 6 will comprise a smooth continuation of the 
production line. Once the EASE approach is established, the Air Force 
will examine the application of this acquisition strategy to a wider 
portfolio of space program. The SBIRS program, which has also 
experienced cost and schedule difficulties during the development 
phase, is also now on more stable footing. The first geo-stationary 
satellite (SBIRS GEO-1) is set to launch in May. The Air Force intends 
to pursue acquisition of SBIRS GEO-5 and GEO-6 using the EASE approach, 
but not until FY13.
    Mr. Ruppersberger. The Air Force has traditionally been the 
Executive Agent for Space within the Department of Defense. Yet 
recently we have learned that the Defense Information Systems Agency 
has been given a significant FY12 budget increase (more than $400M) to 
start the acquisition of a new Ka band satellite system. Can you 
provide any insight on this DISA initiative, how it might affect the 
Air Force Executive Agent status and also how it will avoid competing 
with other space programs for scarce DoD resources?
    Secretary Conaton. The DISA Advanced Satellite System in a Single 
Theater (ASSIST) project will not affect the Air Force's EA status. The 
Secretary of the Air Force, as the designated DoD Executive Agent for 
Space, is responsible for coordinating all DoD space efforts, to 
include integrating and assessing all space communication activities, 
whether they are acquired by the Air Force, Navy, or DISA. To help 
manage this portfolio, the DoD Executive Agent for Space chairs the 
Defense Space Council--to address all DoD aspects of space: policy, 
strategy, operations, logistics, and acquisition. The Defense Space 
Council will provide guidance to DISA's ASSIST effort in support of the 
overall DoD planning/architecture strategy.
    As the DoD focal point for commercial SATCOM, DISA procures an 
Overseas Contingency Operations (OCO) SATCOM capability to address 
surge capability requirements. The DISA procured commercial SATCOM 
complements MILSATCOM in meeting the warfighters' bandwidth 
requirements. Leasing short-term commercial SATCOM on an annual basis 
to support OCO surge requirements is costly ($235M per year) and 
inefficient. DISA, via the ASSIST project, will acquire long-term 
satellite communications services, to include both the space segment 
and associated terminals, in the Ka-band (and potentially also Ku-
band), to address CENTCOM demand. This would be accomplished either 
through buying a commercial SATCOM satellite or signing a life-time 
lease for an entire commercial SATCOM satellite.
    Mr. Ruppersberger. The Air Force Space Based Space Surveillance 
System (SBSS) was successfully deployed last year as a potentially 
revolutionary new capability to improve space situational awareness. 
How is the system performing, does the Air Force plan to continue this 
program and, if so, why did the Air Force eliminate FY12 and outyear 
funding for the follow on capability?
    Secretary Conaton. SBSS Block 10 is performing very well on-orbit, 
meeting or exceeding all performance requirements. The Air Force has 
completed the Initialization and Checkout Phase and System 
Characterization Phase, and all systems are performing nominally. 
Satellite Command Authority for SBSS Block 10 was successfully 
transitioned from the Space and Missile Systems Center (SMC) to AFSPC 
50th Space Wing on 23 Feb 11. SBSS Block 10 is on track for 3QFY11 
Operational Acceptance and Initial Operational Capability 
determination.
    The FY12 President's Budget does not include SBSS Follow-on 
primarily due to program affordability and a delayed need for the 
capability based on the timing of the SBSS Block 10 launch. However, 
the Office of the Secretary of Defense has directed a study examining 
alternative capabilities for Low Earth Orbit-based Space Situational 
Awareness (SSA) of deep space objects, the findings of which will 
inform future decision making.
    Mr. Ruppersberger. The health of the Space Industrial Base has been 
mentioned in both the National Space Policy and the recent National 
Security Space Strategy. Overall, how does the Department assess the 
current health of the space industrial base compared to its health a 
decade ago (prior to statutory requirements dictating that all 
satellites and satellite components necessarily be considered munitions 
for the purposes of exports)?
    Secretary Conaton. The overall health of top tier manufacturers in 
the space industrial base is sound, but there are significant issues 
for lower tier vendors. For space systems, there are small numbers of 
suppliers to produce specialized components such as space qualified 
hardware. Market forces for small numbers of specialized components and 
inconsistent demand result in production gaps for lower tier vendors 
and tend to drive suppliers out of the market.
    The Air Force is working with the NRO, NASA, and MDA via the Space 
Industrial Base Council and other inter-agency forums to assess the 
status of the domestic industrial base and examine potential actions 
that can enable the long-term health of the industrial base. In 
addition, the Air Force has taken steps in the FY12 President's Budget 
to help address industrial base issues, through more effective and 
predictable acquisition, including the Evolutionary Acquisition for 
Space Efficiency (EASE) proposal and the proposed Evolved Expendable 
Launch Vehicle acquisition strategy.
    Mr. Ruppersberger. What is the Executive Branch doing to reduce the 
risk of further degradation to the space industrial base? How important 
is a statutory change to the current commercial satellite ITAR regime 
in helping to project and/or grow this industry base? What can be 
accomplished in this direction absent any further Congressional action?
    Secretary Conaton. The Air Force is supporting a periodic report on 
the health and competitiveness of the U.S. space industrial base 
chaired by the Department of Commerce. The report should be delivered 
to the White House in summer 2011, and will recommend actions that can 
be taken by the government to enhance the space industrial base. In 
addition, the Air Force is partnering with NASA and the Department of 
Commerce to conduct a comprehensive data collection of the entire U.S. 
space industrial base, which includes defense, intelligence community, 
civil, and industrial sectors. This effort will provide needed 
information on the critical lower tiers of the space industrial base.
    There are a number of U.S. Government, industry, and association 
reports and studies that point to export controls and ITAR as a 
significant barrier to the health and competitiveness of the space 
industrial base. In 2007, the Air Force released a defense industrial 
base assessment on the U.S. space industry. In that report, more than 
70% of the approximately 200 survey respondents cited U.S. export 
control, specifically ITAR, as a barrier to entry to global space-
related business.
    The FY10 National Defense Authorization Act requires the Department 
of Defense to complete a report, known as the 1248 Report, to inform 
Congress on the national security ramifications of transferring 
satellites and related items from ITAR to the Commerce Control List. 
Legislation is required to transfer these items to the discretion of 
the President, who can then delegate control of these items to the 
Department of Commerce. In a March 31, 2011 presentation, the National 
Security Staff indicated that the 1248 report is nearly complete and 
should be delivered to Congress in the coming weeks.
    Currently, many items generally available on the global market for 
space commerce are prohibited from being exported by U.S. companies 
without government approval, and the Air Force understands that this 
system has hurt the U.S. space industrial base. To address this 
significant challenge, the Obama Administration announced last summer 
it was pursuing comprehensive export control reform. The Air Force 
recognizes that controlling sensitive space exports remains a concern. 
But we need a different approach, and that is just what the 
Administration, is working toward. As Secretary Gates has said, the 
goal of this reform is ``a system where higher fences are placed around 
fewer, more critical items.''
    The new system of controls will feature a single control list 
(rather than several), and will be executed by a single licensing 
agency, using IT system for export licensing, operating a single 
enforcement coordination center. In November of last year, in fact, an 
Executive Order established the new ``Export Enforcement Coordination 
Center.''
    Currently, the Department of Defense is reviewing existing 
Technology Release and Transfer Processes, and working with other 
agencies to transition to a single electronic licensing system based on 
DoD software. The State Department expects to be integrated later this 
calendar year; the Commerce Department should be integrated by mid-
2012.
    Mr. Ruppersberger. The National Space Policy and National Security 
Space Strategy encourage greater cooperation between the Department of 
Defense and the commercial satellite industry. How does the Department 
view the inter-relationship between the commercial industry and the 
national security space sector?
    General Shelton. The Air Force acknowledges the need for a strong 
inter-relationship between the commercial industry and national 
security space sector to ensure industrial base stability and to assess 
innovative and cost-effective alternatives. Strategic partnerships with 
commercial firms will continue to enable access to a more diverse, 
robust, and distributed set of space systems. These strong 
relationships provide additional options for our space architecture to 
potentially include a mix of commercial, international, and government 
systems to meet our needs.
    Mr. Ruppersberger. How confident are you in the capabilities of the 
Executive Branch to maintain control of the most sensitive satellite 
technologies if other technologies are not ITAR-controlled? In the 
event of a transfer, do you believe it will be more or less difficult 
to control the most sensitive satellite technologies?
    Ambassador Schulte. A report required by Section 1248 of the 
National Defense Authorization Act for Fiscal Year 2010 is currently in 
coordination. The report provides the Departments of State and 
Defense's assessment of the national security risks of removing 
satellites and related components from the United States Munitions List 
(USML). The report includes recommendations on which space and space-
related technologies should remain on--or be candidates for removal 
from--the USML. The report also addresses safeguards and verifications 
necessary to prevent the proliferation and diversion of these space and 
space-related technologies. We are working to complete coordination so 
that we can provide the report to Congress as soon as possible.
    One objective of the Administration's Export Control Reform 
initiative is to create a single control list. The Department of 
Defense has taken the lead in rewriting the USML, including the 
category that deals with spacecraft. We will also begin revising and 
``tiering'' dual-use controls in the near future so that the USML and 
the dual-use Commerce Control List can be merged into one. The new 
control list will be based on a three-tiered structure that will better 
reflect the military and intelligence value of items and technologies 
controlled by the United States. Tier 1 items will represent the 
highest level of military and intelligence criticality that are 
available almost exclusively from the United States. Exports of Tier 1 
items will always require a license and will be reviewed with the 
greatest scrutiny. Tier 2 items will be items that have substantial 
military and intelligence applications and are available from the 
United States and multilateral export control regime members and 
adherents. Many Tier 2 items could be available to Allies and close 
partners without licenses. Some Tier 2 items or technologies may need 
to be more closely safeguarded. Tier 3 items will be those that have 
significant military and intelligence applications but are more widely 
available outside the United States and multilateral export control 
regime partners and adherents. Tier 3 items would be available to most 
of the world. Thus, the tiering of controls in a single control list 
will significantly enhance our ability to control items based on their 
national security importance and to make better informed decisions on 
the national security implications of export requests. It will focus 
our attention on items and technologies of concern, while allowing us 
to share more with Allies and close partners.
    We have not completed our rewrite of controls on spacecraft in the 
USML; therefore, I cannot provide a detailed assessment at this time. 
However, consistent with our overall approach to export control reform, 
I expect that we will propose ``higher fences around fewer items.'' 
Current U.S. law limits the flexibility of the President in this area. 
Energizing the space industrial base, including through export control 
reform, is a key objective of the new National Security Space Strategy.
    Mr. Ruppersberger. Has your office identified--or are you 
identifying--specific space capabilities within the industrial base 
that are in danger of disappearing or have disappeared because of ITAR 
restrictions?
    Ambassador Schulte. The new National Security Space Strategy aims, 
as one of its three strategic objectives, to energize the space 
industrial base that supports U.S. national security. The strategy 
identifies export control reform as a key means to this end. Over the 
past several years, a number of studies, based largely on surveys and 
interviews, have indicated that the U.S. space industry believes that 
U.S. export controls have had a negative impact, particularly on 
second- and third-tier suppliers. There are certain space technologies 
that have only one U.S. supplier or are being aggressively developed by 
foreign competitors. ITAR is one among many factors that may contribute 
to this. While we cannot point to a specific technology that has 
disappeared solely due to export controls, the body of work done on the 
subject supports continuing the export control reform effort that is 
currently underway. With this effort, our goal is to erect ``higher 
fences around fewer items,'' and increase transparency and 
predictability, so that the U.S. space industry will be able to compete 
globally more efficiently.
    Mr. Ruppersberger. How does the NRO link export control policies to 
space industrial base concerns? Do you foresee risks to U.S. national 
security if the current ITAR controls on satellites and their 
components remain in place?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
    Mr. Ruppersberger. What is the NRO doing to evaluate the 
possibilities of revising satellite export controls within your current 
authority?
    Ms. Sapp. [The information referred to is classified and is 
retained in the subcommittee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. As you know, NOAA currently gets solar wind data from 
the Advanced Composition Explorer (ACE) satellite, and uses this data 
to provide critical forecasts and warnings of solar and geomagnetic 
storms, related interruptions of GPS and communications, and 
potentially devastating impacts on satellite and terrestrial 
infrastructure. In addition to posting this information online, NOAA 
also shares the data directly with the Air Force for its own 
forecasting, warning, and space situational awareness activities. ACE 
is now over a decade past its original design life, and suffers from 
instrument damage and degradation due to prior solar storms. In FY12, 
NOAA has requested $47.3 million to begin refurbishment of the 12-year-
old, climate monitoring, DSCOVR spacecraft to replace ACE, with launch 
anticipated in FY2014. The Air Force has requested $135 million in FY12 
to pay for its contribution to the DSCOVR mission that is the launch of 
the spacecraft via a commercial provider.
    As one who is concerned about the impact of electromagnetic pulse 
(EMP)--both natural and human-caused--I am concerned about any new or 
additional vulnerabilities for national space assets. For that reason, 
I would appreciate your answering a series of questions about the Air 
Force's current reliance on ACE data, and about its anticipated 
reliance on DSCOVR data in the future.
    How important is the ACE solar wind data to national security?
    General Shelton. ACE is an important sensing capability because of 
its location between the Earth and Sun. Located at a stationary point 
approximately 1 million miles between the Earth and Sun, it gives us 
30-90 minutes warning before the detected solar disturbance reaches the 
Earth and our space assets. This enables us to implement measures to 
protect our space systems and services.
    Mr. Bartlett. How is the ACE solar wind data currently used by the 
Air Force and does the data currently provided today meet the Air Force 
needs for solar and geomagnetic storm forecasting and warning at all 
storm severity levels that can occur during a solar cycle?
    General Shelton. ACE is used by the Air Force to predict conditions 
affecting the near-Earth space environment and related impacts on space 
systems and services. Having knowledge of these conditions enables us 
to more effectively attribute and mitigate impacts on our space 
capabilities. Currently ACE data meets the Air Force's solar wind 
monitoring needs. However, ACE has limitations during rare severe 
radiation conditions. We do have techniques to work around these 
limitations.
    Mr. Bartlett. Has the Air Force examined the capability of the 
solar wind instruments on DSCOVR and are they sufficient to provide the 
data needed by the Air Force for forecasting and warning at all 
potential storm severity levels once ACE meets its demise?
    General Shelton. Yes, the Air Force has examined the capability of 
DSCOVR's solar wind instruments and has concluded that these 
instruments will be sufficient to meet our solar wind data needs.
    Mr. Bartlett. Has the Air Force examined the NOAA plan for solar 
wind data mission assurance and are they confident that the solar wind 
mission can reliably survive failures that are not uncommon to launch 
and spacecraft operations without an interruption in service that could 
endanger national security?
    General Shelton. Yes, the Air Force has examined the NOAA plan for 
solar wind data mission assurance and is confident that we will get the 
data without an interruption in service.
    Mr. Bartlett. What solar wind data and mission parameters does the 
Air Force user community need to have mission assurance and be able to 
confidently forecast and warn of communications and GPS degradation due 
to solar and geomagnetic storms as well as protect their space, air, 
and terrestrial assets from the impacts of these storms?
    General Shelton. The specific solar wind data and mission 
parameters needed by the Air Force user community for continuity of 
operations include the following: solar wind speed, density, pressure, 
temperature, and 3-D magnetic field. All of these parameters are 
currently measured by ACE.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
